   June 17, 2004




Health Care
DoD Management of Pharmaceutical
Inventory and Processing of
Returned Pharmaceuticals
(D-2004-087)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CHCS                  Composite Health Care System
DMLSS                 Defense Medical Logistics Standard Support
DSCP                  Defense Supply Center Philadelphia
DVA                   Department of Veterans Affairs
ERV                   Estimated Return Value
FIFO                  First-In, First-Out
GAO                   General Accounting Office
GRx                   Guaranteed Returns
MTF                   Military Treatment Facility
PRMP                  Pharmaceutical Returns Management Program
RxCOTS                Pharmacy Commercial Off-the-Shelf
TMA                   TRICARE Management Activity
          Office of the Inspector General of the Department of Defense
Report No. D-2004-087                                                        June 17, 2004
   (Project No. D2003LF-0109)

                DoD Management of Pharmaceutical Inventory
                 and Processing of Returned Pharmaceuticals

                                 Executive Summary

Who Should Read This Report and Why? Hospital administrators, pharmacy
managers, and managers of systems supporting DoD pharmacy programs will be
interested in this report. The report provides information regarding the need for the
appropriate tools to manage pharmacy inventory and process expired pharmaceuticals.

Background. In FY 2003, almost 53 million prescriptions were dispensed at DoD
pharmacies, accounting for approximately $1.7 billion of the $4 billion in DoD
pharmaceutical expenditures. Management of pharmacy matters is assigned to the
Director, DoD Pharmacy Programs, who serves as the senior policy adviser to the
Assistant Secretary of Defense (Health Affairs) and to the Director, TRICARE
Management Activity. DoD established a formal pharmacy supply process in 1992 for
DoD pharmacies to order and receive pharmaceuticals directly from wholesalers, known
as prime vendors. The prime vendor is a distributor of brand-specific pharmaceutical
supplies who provides next-day delivery of those supplies, allowing military treatment
facilities (MTFs) to employ a “just-in-time” inventory method.

Many pharmaceutical manufacturers allow pharmacies to return pharmaceuticals if not
dispensed before their expiration date. The Defense Supply Center Philadelphia awarded
a joint DoD/Department of Veterans Affairs contract, known as the Pharmaceutical
Returns Management Program (PRMP), to assist DoD pharmacies in achieving
maximum credit for outdated, expired, or recalled pharmaceuticals and to minimize
regulatory risk. The amount of credits received by DoD pharmacies each year is not
known; however, according to a former PRMP contracting officer, the industry standard
is about 2 percent.

Results. Although DoD is working to improve pharmaceutical operations through the
acquisition of a comprehensive automated pharmacy system, the chance of dispensing
expired pharmaceuticals can be lessened by reducing inventory levels through
improvements in policy, oversight, and automation. The comprehensive system will
ultimately reduce some, but not all, of the variations in pharmaceutical inventory
management processes and procedures within DoD; however, the system is not projected
to be operational until FY 2008. DoD needs to establish procedures that will correct the
variations in inventory management procedures, as identified at the nine MTFs visited.
Specifically, the number of days’ stock on-hand differed among MTFs visited and the
variations did not relate to the facilities’ workload. In addition, pharmaceuticals with the
shortest shelf life were not always dispensed first and expired pharmaceuticals were not
identified or removed in a consistent manner. The Office of the Assistant Secretary of
Defense (Health Affairs), in coordination with the Military Departments, needs to
develop policies and establish oversight procedures to ensure proper stock levels are
established and maintained, stock rotation is performed, and expiring pharmaceuticals are
consistently identified and removed from inventory. In addition, DoD should continue its
efforts to implement an automated pharmacy inventory capability, from dispensing
through restocking (finding A).

Although DoD has a national contract for processing the return of outdated, expired, and
recalled pharmaceuticals and has established a working group to address contract issues,
implementing and managing the pharmaceutical returns program needs to be improved.
The PRMP contractor did not perform all the services required by its contract. In
addition, the two MTFs visited that chose not to use the PRMP contractor did not have a
legal contract with the pharmaceutical returns company servicing them. Further, a
pharmaceutical prime vendor was paying some pharmaceutical returns companies from
MTF credit accounts when it did not have contractual authority to make such payments.
Additionally, 14 MTF pharmacies made payments in FY 2003 to pharmaceutical returns
companies through potentially improper split payments using Government purchase
cards. MTFs also did not inventory expired pharmaceuticals being returned for credit,
track the credits associated with the returned pharmaceuticals, or analyze returns data for
trends to assist in inventory management. DoD needs to develop policy and establish
oversight procedures of its pharmaceutical returns program to have better control over
funds expended for the returns services and the credits received, and to reduce the
number of pharmaceuticals that will ultimately expire and have to be returned
(finding B).

Recommendations in this report, if implemented, should correct the material management
control weakness identified. See the Findings section for the detailed recommendations.

Management Comments and Audit Response. The Defense Logistics Agency
concurred with the finding and recommendations and noted that the Military
Departments, not Defense Supply Center Philadelphia (Supply Center), are responsible
for program management of the pharmaceutical returns program. The Supply Center’s
oversight responsibility is limited to the PRMP contractor. The Defense Logistics
Agency further stated that the Supply Center has modified existing pharmaceutical prime
vendor contracts and initiated procedures to verify that MTFs have a valid contract with
their pharmaceutical returns companies before authorizing use of the prime vendor credit
accounts for reimbursement. The Supply Center will also oversee the performance of the
PRMP contractor. The Army and the Air Force concurred with most of the
recommendations. The Army stated that it is developing a corporate process for
improvements to all aspects of pharmaceutical inventory management and revising its
primary pharmacy management regulation to include a significantly detailed section on
pharmaceutical inventory management. Also, Army Medical Logistics and Air Force
Medical Logistics will assist pharmacies in the transition from service agreements to
contracts for pharmaceutical returns services. The Army and the Air Force have also
assigned pharmacists to a joint working group that is developing requirements for new
pharmaceutical returns contracts, including mandatory vendor reports and guidance on
the use of those reports. The Navy concurred with the recommendations but did not
provide details on how it would implement them. See the Findings sections of the report
for a discussion of the management comments and the Management Comments section of
the report for the complete text of the comments.

The Defense Logistics Agency comments were fully responsive. The Military
Department comments were partially responsive. We request that the Assistant Secretary
of Defense (Health Affairs) provide comments and that the Army, the Navy, and the Air
Force provide additional comments in response to the final report, as indicated in the
transmittal memorandum, by August 16, 2004.

                                             ii
Table of Contents

Executive Summary                                                          i

Background                                                                 1

Objectives                                                                 2

Findings
     A. Management of Pharmaceutical Inventory                             3
     B. Pharmaceutical Returns Program                                    12

Appendixes
     A. Scope and Methodology                                             26
          Management Control Program Review                               28
     B. Prior Coverage                                                    30
     C. Pharmacy Boards and Committees                                    32
     D. Shelf Stock Reviews at Clinics Visited                            33
     E. Pharmaceutical Expenditures and Credits Received Information      34
     F. Pharmaceutical Returns Management Program Contract                35
     G. Memorandum to the Military Department Surgeons General            37
     H. Memorandum to the Commander, Defense Supply Center Philadelphia   39
     I. Report Distribution                                               41

Management Comments
     Defense Logistics Agency                                             43
     Department of the Army                                               47
     Department of the Navy                                               53
     Department of the Air Force                                          57
Background
    DoD Pharmacy Program. In FY 2003, there were 587 DoD pharmacies located
    on 281 Army, Navy, Air Force, and Air National Guard installations. The
    pharmacies were staffed by approximately 1,200 pharmacists (military, DoD
    civilian, or contractor) that were supported by approximately 2,800 enlisted
    pharmacy technicians and other DoD civilian personnel. In FY 2003, almost
    53 million prescriptions were dispensed at those DoD pharmacies, accounting for
    approximately $1.7 billion of the $4 billion in DoD pharmaceutical expenditures.

    Pharmacy Program Management. The Director, DoD Pharmacy Programs
    serves as the senior policy adviser to the Assistant Secretary of Defense (Health
    Affairs) and to the Director, TRICARE Management Activity (TMA) for all DoD
    pharmacy matters. In addition, the Director, DoD Pharmacy Programs provides
    oversight for the contracted TRICARE pharmacy programs, such as mail-order
    pharmacy and retail pharmacy. A pharmacy consultant assigned to each Military
    Department’s Office of the Surgeon General is the chief adviser to the Surgeon
    General for all pharmacy matters and has managerial oversight of the Military
    Department’s pharmaceutical budget. The consultant is also responsible for
    monitoring patient safety issues regarding pharmaceuticals. Neither the Director,
    DoD Pharmacy Programs nor the pharmacy consultants have operational control
    over individual military treatment facility (MTF) pharmacies.

    DoD Pharmacy Boards and Committees. There are four boards or committees
    that provide guidance regarding DoD pharmacy policy and procedures:

           •   DoD/DVA Federal Pharmacy Executive Steering Committee

           •   DoD Pharmacy and Therapeutics Committee

           •   DoD Pharmacoeconomic Center

           •   DoD Pharmacy Board of Directors

    To promote joint DoD and Department of Veterans Affairs (DVA) initiatives, the
    first two committees include DVA representation and the third group specifically
    addresses support of joint DoD/DVA initiatives in its charter. For more
    information regarding the pharmacy boards and committees, see Appendix C.

    Pharmacy Policy. The Office of the Assistant Secretary of Defense (Health
    Affairs) provides guidance on pharmacy benefits and operations through policy
    memorandums to the Surgeons General. The Surgeons General establish policies
    and procedures for the operation of MTFs within their Departments. The primary
    DoD and Military Department policies addressing pharmacy inventory
    management are as follows.

           •   Health Affairs Policy 95-011, “Tri-Service Pharmacy Policy
               Guidance,” July 26, 1995, provides DoD pharmacy policy with the
               goal of achieving a consistent, equitable, and quality pharmacy benefit
               within DoD. The policy delineates pharmacy responsibilities for the


                                        1
               MTF commander, the senior pharmacist, and the DoD Pharmacy and
               Therapeutics Committee.

           •   Army Regulation 40-3, “Medical, Dental, and Veterinary Care,”
               November 12, 2002, establishes policies, procedures, and
               responsibilities pertaining to selected Army Medical Department
               programs and initiatives, including a chapter addressing pharmacy
               management. In addition, the Army Medical Command issued
               Operations Management Bulletin No. 10-02, untitled, September 27,
               2002, which provides guidance to Army MTFs for managing and
               processing expired pharmaceuticals.

           •   Naval Medicine P-117, “Manual of the Medical Department,”
               Chapter 21, “Pharmacy Operation and Drug Control,” January 13,
               2000, describes procedures for pharmacy operations at naval MTFs,
               including guidance on pharmacy administration.

           •   Air Force Instruction 44-102, “Community Health Management,”
               November 17, 1999, includes guidance on Air Force pharmacy
               management. In addition, the Air Force issued Air Force Manual
               23-110, “Basic United States Air Force Supply Manual,” January 1,
               2004. Volume 5 of the Manual, “Air Force Medical Materiel
               Management System—General” discusses logistical procedures for
               managing gains and losses of inventory and for handling expired
               items.


Objectives
    Our overall audit objective was to evaluate the effectiveness of the management
    of pharmaceutical inventory at MTFs. Specifically, we evaluated the
    maintenance of pharmaceutical inventory, handling of excess and expired
    pharmaceuticals, the pharmaceutical returns program, and other aspects of
    managing pharmaceutical inventory. We also evaluated DoD management
    control programs as they related to the overall objective. See Appendix A for a
    discussion of the scope and methodology and our review of the management
    control programs. See Appendix B for prior coverage related to the objectives.




                                        2
           A. Management of Pharmaceutical
              Inventory
           Pharmaceutical inventory management processes and procedures varied
           within the nine MTFs visited. DoD needs to establish procedures that will
           correct the variations in inventory management procedures. Specifically,
           the number of days’ stock on-hand was different at the MTFs visited and
           the variations did not relate to the facilities’ workload. In addition,
           pharmaceuticals with the shortest shelf life were not always dispensed first
           and expired pharmaceuticals were not identified or removed in a
           consistent manner. The Office of the Assistant Secretary of Defense
           (Health Affairs), in coordination with the Military Departments, needs to
           develop policies and establish oversight procedures to ensure proper stock
           levels are established and maintained, stock rotation is performed, and
           expiring pharmaceuticals are consistently identified and removed from
           inventory. In addition, DoD should continue its efforts to implement an
           automated pharmacy inventory capability, from dispensing through
           restocking. With improved policy, oversight, and automation, inventory
           levels could be decreased and the chance of dispensing expired
           pharmaceuticals could be lessened.


Pharmacy Supply Process
    DoD established a formal pharmacy supply process in 1992 for DoD pharmacies
    to order and receive pharmaceuticals directly from wholesalers, known as prime
    vendors. The prime vendor is a distributor of brand-specific pharmaceutical
    supplies who provides next-day delivery of those supplies. Each MTF uses one
    of three pharmaceutical prime vendors, depending on the location of the MTF.
    The pharmaceutical prime vendor program provides the majority of the MTFs’
    pharmaceutical needs. The balance of pharmaceutical products are provided by
    and purchased directly from manufacturers in small purchases, normally to
    alleviate back orders from the prime vendor.

    Because prime vendors provide next-day delivery of pharmaceuticals, MTFs can
    employ a “just-in-time” inventory method. A just-in-time inventory method
    entails delivery of a commodity when it is needed. The process is used to reduce
    the inventory levels maintained at the MTFs, eliminating local warehousing of
    commodities to meet future needs.


Inventory Levels
    Pharmaceutical inventory management processes and procedures varied within
    the nine MTFs visited (three hospitals and six clinics). The number of days’
    stock on-hand differed among the MTFs and the variations did not relate to the
    facilities’ workload. According to pharmacy personnel, pharmaceutical stock
    levels were based on factors such as just-in-time ordering, seasonal usage, the


                                        3
            local retiree population, and the need to supply activating reserve units with
            pharmaceuticals; however, very little validation of the stock levels was
            performed. At the MTFs visited, the facilities stated that their pharmaceutical
            stock levels ranged from a 1- to 2-day supply to a 30-day supply.

            For the MTFs visited that ordered pharmaceuticals daily, there was no
            relationship between the facilities’ workload and the number of days of stock that
            personnel stated was maintained on the shelf. For example, the range for the
            hospitals varied from a 1- to 2-day supply to a 7-day supply, while the range for
            the clinics was from a 2-day supply to a 10- to 14-day supply.1 There was also no
            apparent relationship based on Military Department or the geographic location of
            the facility.

            Only one of the nine MTFs provided documentation that showed the facility was
            periodically validating that the amount of on-hand stock was equal to the stated
            days of supply. An employee at the Lawrence Joel Army Health Clinic, Fort
            McPherson, Georgia, developed a method to validate the number of pills, or other
            applicable units of measure such as tubes or vials, that constituted the locally
            established 3-day supply requirement. The method was developed as a part of a
            graduate study program and the computation was based on usage data from the
            Composite Health Care System (CHCS). Once the 3-day supply levels were
            computed for each pharmaceutical, the supply technician determined whether any
            temporary changes in ordering were needed to bring the supply to the appropriate
            level. We believe that this method of validating stock levels can make the
            ordering process more efficient pending deployment of a comprehensive
            automated pharmacy system that will automatically generate orders for
            pharmaceuticals based on usage data.

            At five of the six clinics, we attempted to validate that the actual stock on-hand
            was equal to the number of days’ stock on-hand that pharmacy personnel stated
            was maintained. We judgmentally selected five commonly prescribed
            pharmaceuticals,2 counted the amount of stock on-hand for those pharmaceuticals,
            and requested that the pharmacy provide FY 2003 usage reports from CHCS for
            those pharmaceuticals. We computed a daily usage rate for each pharmaceutical
            from the CHCS data and used that usage rate to determine the actual number of
            days’ stock on-hand based on our inventory count. The actual stock on-hand was
            not equal to the stated stock levels in 54 out of 57 instances, which indicated that
            MTFs needed to periodically validate the actual stock levels and make ordering
            adjustments when necessary.




1
    The two facilities that stated they maintained a 30-day supply of pharmaceuticals did not order
     pharmaceuticals on a daily basis.
2
    Data was collected for each strength stocked for the five pharmaceuticals; however, not all clinics stocked
    the same strengths for each pharmaceutical. Further, the results are not projectable and do not purport to
    represent the days’ stock on-hand at all DoD pharmacies.



                                                        4
Stock Rotation
            Pharmaceuticals with the shortest shelf life were not always dispensed first.
            According to pharmacy personnel at the MTFs visited, new shipments of
            pharmaceuticals were stocked behind existing stock to facilitate the first-in,
            first-out (FIFO) method for dispensing those pharmaceuticals. The use of the
            FIFO method is to ensure that items with the shortest remaining shelf life are used
            first.3

            We assessed the use of the FIFO method by reviewing the shelf stock at the MTFs
            visited. Complete shelf reviews were performed at the six clinics visited. We
            found examples of noncompliance with the FIFO method at all six clinics,
            ranging from 15 to 50 instances.4 See Appendix D for additional information
            concerning FIFO noncompliance at the six clinics visited. In addition, at one
            MTF, we observed that personnel were placing newly received pharmaceuticals
            in front of existing stock.


Identifying Expired Pharmaceuticals
            Expired pharmaceuticals were not identified or removed from stock in a
            consistent manner. At eight of the nine MTFs, we found expired pharmaceuticals
            on the shelf, either in a position to be dispensed directly from the container to the
            patient or to be filled from an automated dispensing system. The number of
            expired pharmaceuticals found in stock ranged from 2 pharmaceuticals at 2 MTFs
            to 54 pharmaceuticals at 1 MTF, ranging from less than 1 percent to 27 percent of
            items stocked.5 See Appendix D for additional data concerning the number of
            expired pharmaceuticals identified at the six clinics visited. At two MTFs, the
            entire shelf stock for certain pharmaceuticals had expired. Expired
            pharmaceuticals were found in the outpatient and inpatient pharmacies, on the
            shelves, and in refrigeration units. Specific locations of the expired stock
            included the front of the shelf, the back of the shelf, and out of direct sight on the
            top and bottom shelves. The majority of the expired pharmaceuticals had expired
            in 2003; however, we found five pharmaceuticals with expiration dates prior to
            2003.

            Pharmaceuticals are approved by the Food and Drug Administration and are
            assigned an expected life based on studies. When manufactured, the
            pharmaceutical containers are stamped with an expiration date based on the
            expected life. The pharmaceuticals should be dispensed in a manner to ensure
            that the patient does not use the pharmaceutical after the expiration date.
            Consequently, pharmacies must ensure that the shelf stock is periodically

3
    At times, the pharmacy receives pharmaceuticals with a shorter remaining shelf life than those in stock.
4
    To determine the number of instances of FIFO noncompliance, we counted each pharmaceutical only
     once, even though multiple containers of the same pharmaceutical were out of chronological order.
5
    To determine the number of pharmaceuticals expired at each site, we counted each pharmaceutical only
     once, even though multiple containers of the same pharmaceutical had expired.



                                                        5
reviewed to reduce the chance of dispensing an expired pharmaceutical. The
pharmacy must take into consideration the amount of pharmaceutical that is
normally dispensed—such as a single dose, a 30-day supply, or a 90-day
supply—and remove pharmaceuticals from the shelf accordingly.

At the MTFs visited, the pharmacy staff stated that expired pharmaceuticals were
identified and removed from the shelf monthly during manual 100-percent
reviews of the shelves. The monthly manual review was necessary because the
pharmacies did not have an automated system to monitor the expiration dates.
Although the pharmacy staff stated that they conducted monthly reviews, based
on our identification of expired pharmaceuticals on the shelves at eight of nine
MTFs visited, either the monthly reviews were not being done or the reviews
were not completely effective. Of the nine MTFs visited, pharmacy personnel at
four MTFs stated that pharmaceuticals were removed from the shelf
approximately 30 days before expiration; at two MTFs, pharmaceuticals expiring
the current or following month were removed; and at three MTFs,
pharmaceuticals were removed 3 months before expiration (to eliminate a
problem with dispensing a 90-day supply).

Two MTFs had implemented local methods to alert staff members that certain
pharmaceuticals were close to expiration by color-coding the containers.
However, during our review of the shelf inventory at both MTFs, we identified
problems with the color-coding process. For example, at both MTFs we found
pharmaceuticals that should have been color-coded, but were not. In addition, at
one MTF, we found pharmaceuticals that should have been removed from the
shelf according to their color-coding, but had not been removed. Partial
adherence to a system such as color-coding could potentially increase the number
of expired pharmaceuticals on the shelf because personnel rely on the
pharmaceuticals being correctly color-coded.

We were informed that one Army MTF had an automated process for identifying
expired pharmaceuticals. However, our review of that facility showed that the
process was not comprehensive. The MTF maintained pharmaceuticals in two
sections of the pharmacy—in a warehouse-like storage center and on the shelves
for dispensing. The MTF was able to automatically identify expiring and expired
pharmaceuticals located in the storage center. However, once the
pharmaceuticals were pulled from the storage center and placed on the pharmacy
shelves, the MTF had to conduct a monthly manual inspection to remove expiring
and expired pharmaceuticals. The multi-level stocking system used was not
completely automated, but the majority of the pharmaceuticals were stored in the
storage center, which tracked expiration date information electronically. Because
fewer pharmaceuticals were on the shelves, less time was required for the manual
inspection and the opportunity for overlooking expired pharmaceuticals was
decreased. However, because of space and technology requirements, we did not
find it a viable option for all MTFs.




                                    6
Policy and Oversight
     The Office of the Assistant Secretary of Defense (Health Affairs), in coordination
     with the Military Departments, needs to develop policies and establish oversight
     procedures to ensure proper stock levels are established and maintained, stock
     rotation is performed, and expiring pharmaceuticals are consistently identified
     and removed from inventory.

Policy
     Office of the Secretary of Defense and Military Department Policies. The
     Office of the Assistant Secretary of Defense (Health Affairs) had not issued
     policies that specifically address pharmacy inventory management. In addition,
     Military Department guidance concerning pharmacy inventory management was
     limited. None of the Military Department policies include requirements for
     setting specific stock levels. Army and Air Force policies address stock rotation;
     however, the policies state only that stocks should be actively managed and
     rotated to ensure that items with the earliest expiration date are used first. None
     of the Military Departments’ policies contain guidance regarding the
     identification of expired pharmaceuticals; however, Air Force Manual 23-110
     outlines procedures for removal and return of expired items using commercial
     credit return programs.

     MTF Policies. Of the nine MTF pharmacies visited, five (one Army, two Navy,
     and two Air Force) had local policy addressing specific stock levels, stock
     rotation, or the identification and removal of expired pharmaceuticals from shelf
     stock. Only two of the local policies (one Army and one Air Force) address all
     three issues. Of the two Navy MTF policies, one only addresses stock levels and
     the other only addresses expiration concerns. The remaining Air Force MTF
     policy addresses both stock levels and expiration.

     The Office of the Assistant Secretary of Defense (Health Affairs), in coordination
     with the Military Departments, needs to develop policy that standardizes
     pharmacy inventory management within DoD. In addition, the Military
     Departments need to develop procedures that implement that policy. Although
     variations should be allowed based on the facility’s workload, mission, and scope
     and level of care, the policies and procedures should address all aspects of
     pharmacy inventory management, including stock levels, stock rotation, and
     uniform procedures for the identification and removal of expired pharmaceuticals.
     The stock level requirements should take into account just-in-time delivery and
     require periodic validation of the inventory levels as prescription and patient
     patterns change. Further, because the most recently received pharmaceuticals
     may not always have expiration dates later than those currently in stock, the
     pharmacy staff should periodically reorganize the stock to ensure the
     pharmaceuticals with the earliest expiration date are dispensed first. In addition,
     until such time that the process of identifying expired pharmaceuticals is
     automated, a manual check of stock should be required on a monthly basis so that
     expired pharmaceuticals will be properly identified and removed. The policy



                                          7
     should clearly outline the time by which pharmaceuticals should be removed; that
     is, expiring in the current month, the next month, or in 90 days.

Oversight
     Oversight of the policies and procedures is also needed to minimize the variations
     within DoD. For example, although four of the local policies required that
     expired pharmaceuticals be removed from stock, we found expired
     pharmaceuticals on the shelves at all four facilities. In addition, the Offices of the
     Surgeons General and senior pharmacy management need to ensure that the
     MTFs establish appropriate stock levels and that those stock levels are
     periodically validated. Oversight is also needed to ensure procedures are
     established for rotating stock so that the oldest pharmaceuticals are dispensed
     first. In addition, senior management should verify that the MTFs establish
     procedures for the consistent identification and removal of expired and expiring
     pharmaceuticals. Standardized procedures will expedite the transition process
     when pharmacy staff transfers to a different MTF.


System Integration
     DoD should continue its efforts to establish an automated pharmacy inventory
     capability, from dispensing through restocking. As of February 2004, that
     capability did not exist. The primary systems that support pharmacy operations
     and management—CHCS for dispensing and the Defense Medical Logistics
     Standard Support (DMLSS) system for ordering—do not interface with each
     other. However, the Office of the Assistant Secretary of Defense (Health Affairs)
     has begun action to resolve that with the procurement of a comprehensive
     automated pharmacy system, known as the pharmacy commercial off-the-shelf
     (RxCOTS) system.

     CHCS. CHCS is an automated information system supporting the administration
     and delivery of health care at MTFs throughout the world. The system includes a
     pharmacy component, which provides MTF management with pharmaceutical
     dispensing information, accepts and tracks all patient orders and prescriptions,
     and provides information for pharmacy-related reports. CHCS has the capability
     to provide a perpetual inventory of pharmaceuticals; however, it requires the
     manual entry of the inventory level for each pharmaceutical stocked. Because of
     the labor-intensive nature of the system, MTF pharmacies have elected to use the
     system only for the inventory management of controlled pharmaceuticals.

     DMLSS System. DMLSS is an integrated system that provides DoD users with
     medical logistics support, negating the need to stock large inventories. The
     DMLSS system supports the pharmacy by ordering pharmaceuticals from prime
     vendors and providing pharmacy management with historical ordering
     information. However, the DMLSS system does not have the capability to
     manage pharmaceutical inventory at the pharmacy level or automatically identify
     ordering requirements. Therefore, the pharmacy technicians examine the shelves
     to identify pharmaceuticals that need to be replenished and manually identify the


                                           8
    quantity to be ordered. The data is then downloaded into the DMLSS system,
    which generates an order for submission to the prime vendor.

    System Upgrade. CHCS and the DMLSS system do not have the capability to
    share data that resides in each system. DoD is in the process of upgrading CHCS
    to CHCS II. The implementation of the upgraded pharmacy portion of CHCS II
    is planned for FY 2008. The upgrade will include the RxCOTS product that
    supports total pharmacy processing. RxCOTS includes inventory management
    capabilities and the ability to perform automated reordering of pharmaceuticals.
    Although not in the statement of work, TMA staff stated that the RxCOTS
    software will not replace DMLSS; instead, the RxCOTS functionality will
    complement the logistics function provided by the DMLSS system, including
    pharmaceutical ordering, purchasing, and receiving. We believe that when
    pharmaceuticals’ expiration dates can be automatically identified from
    information embedded in the product labels, RxCOTS should be modified to
    automatically identify expiring and expired pharmaceuticals. Expiration date
    identification should be pharmaceutical specific; that is, removal at the 30-day
    point for some pharmaceuticals and at the 90-day point for most maintenance
    drugs. Without an expiration date identification process, the system would not
    provide a total inventory management capability.


Inventory Levels
    With improved policy, oversight, and automation, inventory levels could be
    decreased and the chance of dispensing expired pharmaceuticals could be
    lessened. However, until such time as the RxCOTS product is implemented, DoD
    needs to establish interim procedures to support stock level determinations and
    automated ordering.

    The eventual implementation of RxCOTS should facilitate reducing the variations
    found in stock level determinations. However, the RxCOTS product will not
    eliminate the need to employ manual procedures to ensure use of the FIFO
    method of rotating inventory. We believe that the importance of rotating
    inventory will be less when stock levels are reduced. Stock levels should be
    maintained that ensure the appropriate amount of pharmaceuticals are available
    for patients without maintaining excessive supplies that require extra space and
    extra personnel and could ultimately expire unused. The prime vendor program
    was established to eliminate the need to overstock supplies.

    In addition, more accurate stock level determinations should reduce the
    magnitude of expired pharmaceuticals remaining on the shelf. With less stock on
    the shelves, the pharmacy staff removing expired drugs would have less inventory
    to examine. Further, having an automated process that provides expiration date
    information would also help identify expiring pharmaceuticals that need to be
    removed. Because the expiration date is not always checked at the time the
    prescription is filled, MTFs need to ensure they have minimal amounts of
    expiring pharmaceuticals in their inventory. Smaller shelf inventories should
    reduce expiring stock and, therefore, reduce the chance of erroneously dispensing
    expired pharmaceuticals.


                                        9
Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Assistant Secretary of Defense (Health
    Affairs), in coordination with the Military Department Surgeons General,
    develop policy and procedures that:

           a. Require the military treatment facilities to:

                    (1) Establish stock levels based on facility workload, scope and
    level of care, and mission.

                   (2) Require the facility to validate the stock levels on a
    periodic basis.

          b. Standardize the criteria for identifying expiring pharmaceuticals
    and removing those pharmaceuticals from inventory.

           c. Establish standard procedures for stocking pharmaceuticals on the
    shelves to ensure those with the earliest expiration date are dispensed first.

          d. Establish oversight procedures to ensure the policy and procedures
    are implemented and followed.

    Military Department Comments. The Army concurred and stated that the
    Army Medical Department is developing a corporate process for improvements to
    all aspects of pharmaceutical inventory management. The Army is also revising
    its primary pharmacy management guidance, Chapter 11 to Army Regulation 40-
    3, which will have a significantly detailed section on pharmaceutical inventory
    management. The Navy concurred but did not provide additional comments on
    the recommendation. The Air Force concurred and noted that the Surgeon
    General’s office has been working with the Air Force Audit Agency, DSCP, and
    the DoD Pharmaceutical Reverse Distribution Working Group to develop criteria
    for pharmaceutical inventory management. (See page 21 for details about the
    working group.)

    Audit Response. The Army and the Air Force comments were fully responsive,
    and the Navy comments were partially responsive. Because the Army and the Air
    Force did not specifically address each element of the recommendation, we will
    monitor and evaluate their implementation plans to ensure compliance with all
    elements. We request that the Navy provide comments on how it plans to
    implement the recommendation. The Assistant Secretary of Defense (Health
    Affairs) did not provide comments. We request that the Assistant Secretary of
    Defense (Health Affairs) provide comments in response to the final report.

    A.2. We recommend that the Assistant Secretary of Defense (Health Affairs)
    ensure the upgraded pharmacy component of the Composite Health Care
    System II:




                                        10
      a. Interfaces with the Defense Medical Logistics Standard Support
system for automatic ordering.

       b. Incorporates a capability to automatically identify expiring or
expired pharmaceuticals, when expiration date information is embedded in
pharmaceutical product labels.

Military Department Comments. Although not required to comment, the
Army, the Navy, and the Air Force concurred. The Army and the Air Force
stated that they support an automated solution for pharmacy inventory control.
The Navy stated that DoD is currently evaluating a commercial off-the-shelf
pharmacy package for CHCS II and recommended that the Services collectively
establish standard business rules to leverage the capabilities of the system.

Audit Response. The Assistant Secretary of Defense (Health Affairs) did not
provide comments. We request that the Assistant Secretary provide comments in
response to the final report.




                                   11
                    B. Pharmaceutical Returns Program
                    Although DoD has a national contract for processing pharmaceutical
                    returns and has established a working group to address contract issues,
                    improvements are needed in the implementation and management of
                    DoD’s pharmaceutical returns program.

                             •   The Pharmaceutical Returns Management Program (PRMP)
                                 contractor did not perform all the services required by its
                                 contract, and pharmacy staff at three MTFs visited were not
                                 aware of all the services available to them in the PRMP
                                 contract and had not requested essential services.

                             •   Of the nine MTFs visited, two chose not to use the PRMP
                                 contractor. Those two MTFs did not have a legal contract with
                                 the pharmaceutical returns company (non-PRMP company)
                                 servicing them.

                             •   A pharmaceutical prime vendor was paying at least two
                                 non-PRMP companies from MTF credit accounts6 when it did
                                 not have contractual authority to make such payments.

                             •   Fourteen MTF pharmacies made payments in FY 2003 to a
                                 non-PRMP company through potentially improper split
                                 payments7 using Government purchase cards.8

                             •   MTFs did not conduct inventories of expired pharmaceuticals
                                 being returned for credit, track the credits associated with the
                                 returned pharmaceuticals, or analyze returns data for trends
                                 applicable to inventory management.

                    DoD needs to develop policy and establish oversight procedures to
                    manage its pharmaceutical returns program. With improved policy and
                    oversight, DoD could have better control over DoD funds expended for
                    pharmaceutical returns services and the credits received for returned
                    pharmaceuticals. In addition, MTF management of pharmaceutical
                    inventory would be improved, reducing the number of pharmaceuticals
                    that will ultimately expire and have to be returned.




6
    Credit accounts are maintained by the prime vendors for each DoD customer that receives credits from
    drug manufacturers for returned drugs.
7
    Split payments are multiple payments made on the same day to the same company, each under the micro-
     purchase threshold.
8
    We based our analysis of this issue on Government purchase card program data provided by the Defense
    Manpower Data Center.



                                                      12
Pharmaceutical Returns
            Many pharmaceutical manufacturers allow pharmacies to return certain
            pharmaceuticals if they are not dispensed before their expiration date. Each
            manufacturer establishes its own conditions for accepting the returned
            pharmaceuticals. Generally, the manufacturer issues a check, in-kind exchange,
            or other form of credit to the purchaser upon the return of the expired
            pharmaceuticals. A former PRMP contracting officer at DSCP, who conducted
            extensive research of the pharmaceutical returns industry prior to awarding the
            PRMP contract, stated that the industry standard for returns is approximately
            2 percent of the total cost of pharmaceutical expenditures.

            MTF pharmacies purchase most of their pharmaceuticals from prime vendors, not
            directly from manufacturers. Therefore, most refunds for expired
            pharmaceuticals are issued to the prime vendors, who then assign the refunds to
            the appropriate credit accounts. To assist pharmacies with the returns process,
            pharmaceutical returns companies9 were established. For a negotiated fee, the
            returns companies collect the expired pharmaceuticals; return the pharmaceuticals
            to the manufacturer, as appropriate; dispose of any pharmaceuticals that are not
            returnable; and, in some cases, provide support in the collection and
            reconciliation of the credits received. The prime vendors maintain the MTF
            credit accounts. Generally, the MTFs must use the credits within 90 days.10


Pharmaceutical Returns Within DoD
            Pharmaceutical Returns Companies. DSCP awarded a joint DoD/DVA PRMP
            contract to Guaranteed Returns (GRx) on January 31, 2001, and administers the
            contract. The initial contract period was for 15 months, with three additional
            15-month option periods. DoD has exercised the second option period, which
            began on August 1, 2003. The joint contract was awarded to assist DoD and
            DVA pharmacies in achieving maximum credit for outdated, expired, or recalled
            pharmaceuticals and to minimize regulatory risk, especially in the area of waste
            disposal. The contractor processes pharmaceutical returns for DoD and DVA
            medical facilities within the United States and overseas.11 It is not mandatory that
            DoD and DVA pharmacies use the contract.

            According to GRx staff, it currently has 22,000 customers (or clients) and
            approximately 60 percent of GRx business comes from hospital pharmacies. DoD
            and DVA clients are 10 percent to 15 percent of its total client base. DoD clients
            generate approximately 20 percent of returns processed by GRx in dollar value.



9
    The technical term for pharmaceutical returns companies is “reverse distributors.”
10
     If credits are not used within 90 days, the prime vendor generates a check to the U.S. Treasury for the
     amount of the MTF’s unused credits.
11
     Pharmaceutical returns from overseas locations cannot include controlled substances.



                                                        13
            The other pharmaceutical returns company that has a significant number of DoD
            clients is EXP Pharmaceutical Services Corporation (EXP). As of October 15,
            2003, EXP had 121 DoD accounts at 71 DoD facilities.

            The pharmaceutical returns companies visited received payment for their services
            based on different methods. The PRMP contractor is not paid until the actual
            credits are received, at which time it is reimbursed based on a percentage of the
            actual receipts. EXP is reimbursed based on the anticipated return value of
            pharmaceuticals at the time they are returned.

            Credit Information. The Navy and the Air Force received approximately
            $9.1 million in credits in FY 200212 from the return of expired pharmaceuticals
            processed by pharmaceutical returns companies. The credits represent
            approximately 1 percent of FY 2002 pharmacy expenditures. Because
            information on credits received is not centrally maintained, the Military
            Department pharmacy consultants collected the information from the MTFs. See
            Appendix E for additional information concerning pharmacy expenditures and
            credits received.

            Although DoD has a national contract for processing pharmaceutical returns,
            improvements are needed in the implementation and management of the DoD
            pharmaceutical returns program.


PRMP Contractor’s Relationship With MTFs
            The PRMP contractor did not perform all the services required by its contract, and
            pharmacy staff at three MTFs visited were not aware of all the services available
            to them in the PRMP contract and had not requested essential services. Seven of
            the MTFs visited were using the PRMP contractor; none had regularly received
            all of the reports required by the contract, and two MTFs had not received any
            reports without requesting them. In addition, three of the seven MTFs were not
            aware of all of the reports or services available from the contractor.
            PRMP Contract. The PRMP contract outlines contractor requirements and
            responsibilities, including certain specific reporting requirements. The reporting
            requirements are critical to the management of the pharmaceutical returns
            process. The reports provide MTF staff with information concerning the actual
            pharmaceuticals returned, which could be used to identify whether the same
            pharmaceuticals are being repeatedly returned. The reports also provide
            information concerning estimated and actual pharmaceutical returns credit, which
            could be used to determine the cost of the program to the MTF and the amount of
            credits available for future purchases. See Appendix F for details regarding
            reporting and other contractor responsibilities.

            Returned Goods Reports. The contractor is required to provide the MTF with
            detailed reports on returned goods, by manufacturer, within 30 days of receiving

12
     Although requested from all the Military Departments for this audit, the Army provided incomplete
     FY 2002 credits received information.



                                                      14
    the returned pharmaceuticals. The reports include the invoice number, product
    name, national drug code, lot or batch number, quantity, and estimated return
    value (ERV). Additionally, the contractor is required to list non-returnable items
    separately on a disposal manifest that includes, at a minimum, the contract
    number, product name, national drug code or catalog number, quantity, ERV, and
    reason for non-eligibility for credit. The contractor should provide separate
    manifests for the disposal of controlled drugs and when disposing of hazardous
    waste products.

    All of the MTFs visited that used the PRMP contractor received some returned
    goods reports. However, two of the MTFs only received the reports after
    requesting them from the contractor. A representative from one of the two MTFs
    stated that she had recently requested and received several reports but had been
    told by a GRx representative not to expect the reports in the future without an
    additional charge. Charging for the reports would be in violation of the contract.
    Another pharmacy representative was not familiar with the contents or
    availability of the detailed returned goods reports and only received one upon
    request, after our initial visit.

    Monthly Status Report. In addition, the contractor is required to provide the
    MTF with a monthly status report of credit receipts, listing the manufacturer,
    ERV, actual return value, and pending credits. None of the MTFs visited reported
    receiving the required monthly status reports. Also, inventory managers at two
    MTFs were not aware of the availability or contents of those reports. Both
    managers expressed a need for manufacturer-specific data, which should be
    provided in the monthly status report. MTFs reported receiving credit
    memorandums from their prime vendor and Credit Distribution Notifications
    from the PRMP contractor. The credit memorandums indicate when credits are
    posted to the MTF account and the Credit Distribution Notifications show the
    lump sum credit for the MTF. However, neither document shows outstanding
    credits by manufacturer. The monthly status reports required by the contract
    would aid the MTFs in reconciling their credit accounts by identifying which
    manufacturers still owed them credits. The PRMP contractor stated that because
    it takes responsibility for reconciling credits for the MTFs, it does not routinely
    send the monthly status reports to the MTFs, although the status reports are
    available upon request.


Contracting With Non-PRMP Companies for Pharmaceutical
  Returns Services
    The two MTFs visited that chose not to use the PRMP contractor did not have a
    legal contract with the pharmaceutical returns company servicing them. Because
    the PRMP contract is not mandatory, MTFs have the option of selecting a
    pharmaceutical returns company other than GRx. However, if a different
    company is selected, the MTF should procure the services in accordance with the
    Federal Acquisition Regulation.

    We visited two MTFs that used a non-PRMP company for pharmaceutical returns
    services. Both MTFs were using EXP, but neither had a signed contract with


                                        15
    EXP for pharmaceutical returns services. The pharmacy chief at one MTF
    indicated he had made several requests to EXP for a service contact or agreement,
    but had not received it. At the other MTF, the returns program manager provided
    a faxed copy of an unsigned service agreement with EXP for FY 2004, but had no
    agreement for FY 2003.

    EXP management informed us that EXP has several types of contractual
    arrangements with clients, including blanket purchase agreements, service
    agreements, and written contracts, depending on the facility serviced. When we
    explained that the two MTFs we visited receiving EXP services did not have
    contracts that allowed for either the removal of the expired pharmaceuticals or the
    payment of those services, EXP management offered no explanation.

    Because the pharmaceutical returns services of EXP were being used without a
    valid contract, we sent a memorandum to the Military Department Surgeons
    General (Appendix G) requesting that they require MTF commanders to ensure
    valid authorization was in place for procuring and paying for their pharmaceutical
    returns services if they were not using the PRMP contractor. Without a valid
    contract, DoD cannot require pharmaceutical returns companies to provide the
    services and reports necessary for the MTF to adequately manage its
    pharmaceutical returns program. The Deputy Surgeon General of the Army
    provided a prompt response to our memorandum. He informed us that most of
    the Army MTFs use the PRMP contractor; however, those not using the PRMP
    contractor would be required to implement local or regional contracts with other
    pharmaceutical returns companies. In a March 15, 2004, memorandum, the Navy
    Bureau of Medicine and Surgery stated that use of the PRMP contractor is the
    preferred source for returns services and that if an alternate source is used, a local
    contract must be established. The memorandum also forbade the use of
    Government purchase cards for returns services.


Payment to Non-PRMP Companies
    A pharmaceutical prime vendor was paying some pharmaceutical returns
    companies from MTF credit accounts when they did not have contractual
    authority to make such payments. In addition, some MTF pharmacies made
    payments to pharmaceutical returns companies through potentially improper split
    payments using Government purchase cards.

    Payments From Credit Accounts by Prime Vendors. A prime vendor was
    making payments without any contractual authority to at least two non-PRMP
    companies for services provided to DoD clients. The prime vendor contracts
    allow payments from MTF credit accounts only to GRx, the PRMP contractor.
    However, because it is common practice for prime vendors to make payments
    from credit accounts to pharmaceutical returns companies in support of all their
    clients, including private-sector hospitals and pharmacies, the prime vendor
    continued the practice for DoD clients. According to the prime vendors we
    contacted, they are receiving verbal approval from DoD clients to make payments
    on their behalf. However, we could not find authority in the prime vendor



                                         16
    contract to allow for such payments. The two MTFs visited that were not using
    the PRMP contractor did not have contracts in place to authorize the payments.

    Because of the lack of contract authority to pay for pharmaceutical returns
    services from non-PRMP companies, we sent a memorandum to the Commander,
    DSCP (Appendix H) requesting that the DSCP staff direct prime vendors to
    immediately stop payments to non-PRMP companies. In addition, we requested
    that DSCP direct prime vendors to notify non-PRMP companies that their
    invoices cannot be paid from MTF credit accounts. We received a response from
    the Commander, DSCP, who stated that the pharmaceutical prime vendor
    contracts will be modified to allow for payments from MTF credit accounts to the
    PRMP contractor or any other pharmaceutical returns company that has a local
    contract with an MTF.

    Payments With Government Purchase Cards. Several MTFs paid for
    pharmaceutical returns services through potentially improper split payments using
    Government purchase cards. Our limited analysis of FY 2003 purchase card
    transactions to one non-PRMP company showed that 14 MTFs had made
    potentially improper split payments, as defined in section 428, title 41, United
    States Code. We analyzed 140 purchase card transactions from 30 MTFs. We
    identified 68 transactions, representing 26 possible split payment episodes, at
    14 MTFs—1 Army, 1 Navy, and 12 Air Force. Those 26 episodes totaled almost
    $125,000.

    We notified the Military Department Surgeons General of the possible payment
    violations in the same memorandum that we notified them of the contracting
    problem (see Appendix G). The Deputy Surgeon General of the Army provided a
    response to our memorandum; however, the response did not specifically address
    the possible payment violations. In a March 15, 2004 memorandum, the Bureau
    of Medicine and Surgery forbade the use of Government purchase cards for
    pharmaceutical returns services.


MTF Management of Pharmaceutical Returns Program
    The management of the pharmaceutical returns program needs improvement. The
    MTFs did not conduct or require on-site inventories of expired pharmaceuticals
    being returned for credit, did not reconcile credits received for returned
    pharmaceuticals, and did not analyze returns data for trends to assist in ordering
    or modifying inventory levels.

    On-Site Inventories. The MTFs did not conduct or require on-site inventories of
    expired pharmaceuticals being returned for credit. Inventories of expired
    pharmaceuticals prepared before shipment are needed to verify that the
    pharmaceutical returns company accurately accounts for all returned
    pharmaceuticals. None of the nine MTFs visited had conducted a complete
    inventory of expired pharmaceuticals; three had their pharmaceutical returns
    company conduct an on-site inventory. One of those three MTFs also compiled a
    list of items as they were being packed for return. However, the list did not
    contain sufficient detail for comparison with the contractor-prepared inventory.


                                        17
Two additional MTFs required their pharmacy staffs to prepare turn-in documents
when they transferred expired pharmaceuticals to the designated storage area to
await return. At one of the MTFs, there were no discrepancies between the
contents of seven boxes and their accompanying turn-in documents. At the other
MTF, the form that was required for turn-in was completed for only 8 of
59 expired pharmaceuticals. Additionally, only three of the eight forms were
correctly prepared. Further, neither of the two MTFs requiring turn-in documents
had verified the information or consolidated the information to compile a
complete inventory of expired pharmaceuticals. Some pharmacy managers did
not see the value of completing on-site inventories of expired, non-controlled
pharmaceuticals. A Navy pharmacy chief said doing this would be like having
the MTF complete a task that it is paying the contractor to perform. An inventory
manager at another Navy MTF said the pharmacy would need additional staff to
conduct on-site inventories.

Credit Reconciliation. Most of the MTFs visited did not reconcile the credits
they received for expired pharmaceuticals. Only one of the nine MTFs visited
attempted to fully reconcile the credits. The MTF pharmacy representatives
stated that credit reconciliation was too complex and time-consuming and that
they did not receive sufficient documentation from the pharmaceutical returns
companies to reconcile the credits with the returns. Full reconciliation is not
possible with the reports provided by the pharmaceutical returns companies to the
MTFs visited because the reports do not provide sufficient detail on the actual and
estimated credits by pharmaceutical and manufacturer. Instead, the MTFs relied
on the pharmaceutical returns companies for credit reconciliation.

Although both pharmaceutical returns companies visited provided the MTFs with
inventories listing the pharmaceutical ERVs, the companies performed different
degrees of credit reconciliation. The PRMP contractor informed us that it
performs full credit reconciliation services for its clients. GRx considers the
reconciliation service to be a major benefit to MTFs. The company representative
noted that because GRx is paid only after the actual credits are received, it is in
the company’s interest to ensure that as many credits as possible are collected.
Conversely, the non-PRMP company, EXP, provides limited credit reconciliation
services for its clients. EXP provides the MTF with a summary report that lists
the credit anticipated from each manufacturer. The summary report assists the
MTF in matching anticipated credits with actual credit memorandums when they
are received from the prime vendor. One MTF that attempted to track credits
found the summary report beneficial in its reconciliation process.

Trending Expired Pharmaceutical Data. None of the MTFs visited
systematically analyzed the returned pharmaceuticals data to assist in modifying
ordering or inventory stock levels. A pharmacy manager at one MTF stated that
she reviewed the returned goods reports for trends in expiring pharmaceuticals.
She said she had not noticed any trends. However, the pharmacy manager was
only reviewing a portion of the returned pharmaceuticals information. She only
had reports on pharmaceuticals that were returnable; she did not have the disposal
manifests for non-returnable pharmaceuticals. We believe a complete analysis of
expiring pharmaceuticals requires reviewing data for both returnable and
non-returnable pharmaceuticals for an extended period. Other MTF pharmacy
managers said they relied mainly on CHCS usage reports for trends. The CHCS


                                    18
            reports are important because they provide the total number of drugs dispensed,
            but reports on pharmaceutical returns should also be reviewed. Reviewing
            returned goods reports would help identify repetitive returns that could be
            alleviated by modifying ordering or inventory stock levels.

            The MTFs must take a more active role in the management of their
            pharmaceutical returns program. The MTFs visited did not routinely review the
            pharmaceuticals that expired and had to be returned to determine whether they
            were being ordered at an appropriate level. Overall inventory management
            requires both knowledge of pharmaceutical usage and pharmaceutical returns.
            On-site inventories of expired pharmaceuticals will help to verify that the
            pharmaceutical returns companies are accounting for all returned drugs. The
            MTFs also need to track the cost and benefits of the program by monitoring and
            reconciling credits received. In addition, they need to analyze their returns data
            for trends that would indicate the need to change stock levels and pharmaceutical
            ordering requirements.

            DoD needs to develop policy and establish oversight procedures to manage its
            pharmaceutical returns program.


Pharmaceutical Returns Policy
            Written policy concerning the processing of expired pharmaceuticals is limited.13
            The Office of the Assistant Secretary of Defense (Health Affairs) had not issued
            any policy regarding pharmaceutical returns. At the Military Department
            headquarters-level, Army Medical Command Operations Management Bulletin
            No. 10-02 provides guidance for handling pharmaceutical returns. The Bulletin
            tasks the pharmacy chief and the logistics chief at Army MTFs to ensure
            procedures are in place to track and obtain maximum credit for returned
            pharmaceuticals. Air Force Manual 23-110 provides information concerning the
            removal and return of expired items using commercial credit returns programs.
            The Naval Medical Command had not issued any policy regarding
            pharmaceutical returns. None of the Military Department policies address
            analyzing data on expired pharmaceuticals for trends applicable to inventory
            management.

            Five of the nine MTFs visited had local policies that address the processing of
            pharmaceutical returns—two Army, two Navy, and one Air Force. The two
            Army policies include detailed procedures on the collection of expired
            pharmaceuticals and the pharmacy staff’s interaction with the pharmaceutical
            returns company. One Navy policy and the Air Force policy merely mention that
            expired pharmaceuticals are to be returned. The other Navy policy includes
            general procedures for interacting with the pharmaceutical returns company.
            None of the policies discuss analyzing the information provided by
            pharmaceutical returns companies for trends applicable to inventory management.


13
     Although not policy, DSCP provides the PRMP contract and general information about the
     pharmaceutical returns program on its Internet site (http://dmmonline.dscp.dla.mil/pharm/returnprog.asp).



                                                       19
Oversight of the Pharmaceutical Returns Program
           DoD does not provide sufficient oversight of the pharmaceutical returns program.

           DSCP Oversight. Contract administration for the PRMP contract is the
           responsibility of DSCP. However, DSCP has provided little oversight of contract
           usage or contractor performance. DSCP representatives did not know how many
           MTFs used the PRMP contractor, the volume of returns, or the amount of credits.
           Although DSCP periodically receives summary reports from the contractor, it
           does not actively analyze or monitor those reports. DSCP officials stated that it is
           not DSCP’s responsibility to track data. They stated that it is the MTF’s
           responsibility to follow up on credits due. Also, the contract specifies that
           contractor invoicing and payment by prime vendors are business matters between
           the contractor and prime vendors and do not involve DSCP.

           Although the Military Departments should take a more active role in the
           management of pharmaceutical returns, overall responsibility for contract
           oversight resides with DSCP. MTF staffs need to report any problems with the
           contractor through the formal reporting process and the Military Departments
           need to ensure DSCP is aware of any problems as soon as they are identified.
           However, we believe DSCP should oversee the PRMP contractor’s performance,
           to include ensuring that the contractor provides its required services to the MTFs
           and that the MTFs are satisfied with services received.

           Military Department Oversight. The Military Department pharmacy
           consultants were cognizant of the pharmaceutical returns process, but provided
           little guidance or oversight for managing the process at the MTF level. As noted
           in this report, at Military Department-headquarters level, the guidance is very
           general: two Military Departments stated expired drugs would be returned for
           credit. While the guidance at the MTFs visited was more specific, none addressed
           oversight of the pharmaceutical returns program. A recent General Accounting
           Office (GAO) report14 identified that the MTFs did not adequately manage their
           pharmaceutical returns. As a result of that report, the Navy included the expired
           pharmaceutical returns program as an optional assessable unit in its FY 2003
           management control plan, and the Air Force included the program in its FY 2003
           management control plan. Only one Navy MTF visited had conducted a self-
           evaluation of its expired pharmaceutical returns program; that MTF identified
           weaknesses in its processing of expired pharmaceuticals.

           The GAO recommended that the MTFs prepare an inventory of expired
           pharmaceuticals before shipping them to a pharmaceutical returns company. We
           prepared such inventories at four of the MTFs visited. The inventory preparation
           was a lengthy process and it was extremely difficult to match our inventory to the
           one prepared by the pharmaceutical returns company. The inventory prepared by
           the pharmaceutical returns company identifies pharmaceutical manufacturers
           using corporate information that, in some cases, is different than the manufacturer
           identified on the pharmaceutical item. In addition, the pharmaceutical returns

14
     GAO Report No. GAO-03-168, “Military Treatment Facilities: Internal Control Activities Need
     Improvement,” October 25, 2002.



                                                    20
    company uses scanners, which decreases the amount of time required to prepare
    the inventory. We believe that instead of requiring each MTF to prepare its own
    inventory, the pharmaceutical returns company should be required to prepare an
    inventory at the time the expired pharmaceuticals are collected and that an MTF
    representative should be present when the inventory is taken to ensure all expired
    pharmaceuticals are identified. If the pharmaceutical returns company is unable
    to provide an inventory report to the MTF before returns are shipped, or the MTF
    elects to package its own returns, then the MTF staff would be required to prepare
    an inventory before shipping the expired pharmaceuticals. We contacted the
    GAO representative listed as the primary point of contact for the report. The
    representative agreed that our recommended approach was an acceptable
    alternative to having all MTFs prepare their own inventories.

    Pharmaceutical Returns Program Cost Information. Key cost data
    concerning the pharmaceutical returns program was not easily retrievable and, in
    some cases, did not exist in any DoD or Military Department files or reports. We
    were unable to identify the funds expended for pharmaceutical returns services,
    and DoD did not centrally maintain information concerning the cost of the
    pharmaceutical returns program. Prime vendors are the primary payers for
    pharmaceutical returns services, generally making invoice payments from MTF
    credit accounts maintained by the prime vendors. A prime vendor we contacted
    to obtain information on payments made to pharmaceutical returns companies
    from the MTF credit accounts was unable to provide the data because its records
    do not track payments by client. The MTFs, the pharmacy consultants, the TMA
    pharmacy director, and DSCP staff also did not maintain the data.

    DoD did not have complete and readily available information concerning
    pharmaceutical returns credits and payments. Information concerning actual
    credits is not centrally maintained. We requested MTF-level credit information
    from each Military Department pharmacy consultant, who in turn had to request
    the information from each MTF.


DoD Working Group
    In 2002, DoD established a working group to study the future of the
    pharmaceutical returns program. The working group, called the DoD
    Pharmaceutical Reverse Distribution Working Group, was tasked with developing
    DoD policy and procedures regarding the pharmaceutical returns program. In
    addition, the working group was to identify requirements to be included in future
    contracts. The working group includes representatives from the Military
    Departments and DSCP. It is a joint effort between the pharmaceutical and
    logistics communities. We commend DoD for establishing a joint working group
    to address the problems associated with pharmaceutical returns.




                                        21
Future Contracts for Processing Pharmaceuticals Returns
    DoD and DVA should continue their coordinated effort for future Government
    contracts with pharmaceutical returns companies. Although DSCP is responsible
    for the PRMP contract, it may not be involved in future pharmaceutical returns
    contracts; therefore, DoD should provide DVA with its requirements for any new
    contracts, whether a stand-alone contract (such as the current PRMP contract) or
    as part of the Federal supply schedule. The following elements should be
    considered for future DoD contracting efforts.

           •   Payment to the contractor should not be made until credits are
               received and should be based on the actual credits, not estimated or
               anticipated credits, thereby increasing the contractor’s incentive to
               obtain maximum credit amounts.
           •   A contractor representative should provide on-site services, whenever
               possible, and the contractor representative should be required to
               provide an inventory of all pharmaceuticals collected at the facility
               before they are boxed for shipment.
           •   The contractor should provide reports that will allow the MTF to track
               the pharmaceuticals eligible for credit from collection to receipt of
               actual credits. At a minimum, the report should include:
                   − a list of returnable pharmaceuticals by manufacturer with
                       estimated credits clearly identified,
                   − a list of non-returnable pharmaceuticals with the cost for
                       disposal,
                   − credit reports showing both actual credits received and
                       estimated credits, and
                   − cost reports identifying contractor fees for each pharmaceutical
                       collection.
           •   The contract should be mandatory; however, to ensure competition,
               there could be multiple awards.

    The MTF also has obligations that need to be included in the contract. First, the
    pharmacy staff should pull the expired pharmaceuticals from the pharmacy
    inventory before the contractor arrives. The contractor should not be involved in
    the identification and removal of expired pharmaceuticals. Second, the MTF staff
    should be required to observe the inventory performed by the contractor.


Conclusion
    With improved policy and oversight, DoD would have better control over DoD
    funds expended for pharmaceutical returns services and the credits received for
    returned pharmaceuticals. In addition, analyzing usage data as well as
    information collected from pharmaceutical returns reports would help MTFs



                                        22
    establish appropriate stock levels for pharmaceuticals, which would reduce the
    number of expired pharmaceuticals that are returned.

    The President’s Management Agenda, FY 2002, included nine agency-specific
    goals to improve Federal management of programs. One of the goals was to
    improve coordination of DoD and DVA programs and systems. The PRMP
    contract is a joint DoD/DVA initiative. We support that effort and believe any
    changes to the program should be coordinated between DoD and DVA.
    Therefore, we will provide a copy of this report to the DoD/DVA Joint Executive
    Council.


Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend that the Military Department Surgeons General direct
    military treatment facilities to either use the Pharmaceutical Returns
    Management Program contractor or have valid authorization for procuring
    and paying for the services received from another pharmaceutical returns
    company.

    Military Department Comments. The Army concurred and stated that Army
    Medical Logistics has alerted pharmacies of the issue and will assist pharmacies
    in preparing statements of work and engaging with contracting offices to
    transition from service agreements to contracts. The Navy concurred but did not
    provide additional comments on the recommendation. The Air Force concurred,
    stating that Air Force Medical Logistics will assist in the transition from service
    agreements to contracts and will engage pharmaceutical returns vendors in a
    consultative role to overcome any potential problems.

    Audit Response. The Army and the Air Force comments were fully responsive,
    and the Navy comments were partially responsive. We request that the Navy
    provide comments on how it plans to implement the recommendation in response
    to the final report.

    B.2. We recommend that the Commander, Defense Supply Center
    Philadelphia:

           a. Modify the pharmaceutical prime vendor contracts to:

                  (1) Allow for payments to pharmaceutical returns companies
    other than the Pharmaceutical Returns Management Program contractor.

                 (2) Allow the prime vendors to make payments to
    pharmaceutical returns companies only after verifying that a contract exists
    between the military treatment facility and the pharmaceutical returns
    company. If there is no contract, direct the prime vendors not to make
    payments from the military treatment facilities’ credit accounts.




                                         23
       b. Provide oversight of the current Pharmaceutical Returns
Management Program contract to ensure that the contractor provides the
services and reports required by the contract.

Defense Logistics Agency Comments. The Defense Logistics Agency
concurred. The Defense Logistics Agency stated that DSCP has already modified
all current pharmaceutical prime vendor contracts to allow the use of the MTFs’
prime vendor credit accounts to reimburse all authorized drug returns companies.
In addition, DSCP has initiated procedures to verify that MTFs using non-PRMP
companies have contracts with those companies before authorizing
reimbursement through the credit accounts. Further, DSCP will oversee the
performance of the PRMP contractor. The Defense Logistics Agency noted that
DSCP is not responsible for overseeing the performance of non-PRMP
companies.

Military Department Comments. Although not required to respond, the Army,
the Navy, and the Air Force also concurred. The Army and Air Force stated that
they had assigned pharmacists to the DoD working group that is developing
requirements for new pharmaceutical returns contracts.

B.3. We recommend that the Military Department Surgeons General
develop policy and establish oversight procedures to ensure that military
treatment facility pharmacy or medical logistics staff:

       a. Ensure an inventory of all returned pharmaceuticals is prepared
or generated before the shipment leaves the facility.

       b. Track the costs associated with their pharmaceutical returns
services and the amount of credits to ensure the costs for the services
provided are reasonable and the credits received are complete.

       c. Analyze returned pharmaceuticals data for trends that indicate a
need to modify inventory levels or ordering practices.

Military Department Comments. The Army and the Air Force concurred and
stated that the DoD Pharmaceutical Reverse Distribution Working Group had
developed a draft plan, currently in coordination among the Services, that will
satisfy the intent of this recommendation. The Navy also concurred.

Audit Response. The Army and Air Force comments were fully responsive;
however, we request clarification on how they plan to ensure that the costs of
services provided by the pharmaceutical returns companies are reasonable.
Because all elements of the recommendation were not specifically addressed in
the responses, we will monitor the working group’s progress to ensure that all
elements of the recommendation are addressed. Corrective actions planned by the
working group should apply to all three Military Departments. However, we
request that the Navy provide comments in response to the final report indicating
its intention to support the working group and to comply with its
recommendations.




                                   24
B.4. We recommend that the Assistant Secretary of Defense (Health Affairs)
request that the Department of Veterans Affairs include the following
provisions in future contracts for pharmaceutical returns services:

       a. Payment to the contractor will not be made until the credits are
received and will be based on the actual credits received.

       b. A contractor representative will provide on-site services, whenever
possible, and the contractor representative will provide an inventory of all
pharmaceuticals collected at the facility before they are boxed for shipment.

        c. The contractor will produce reports that will allow the pharmacy
or logistics staff to track expired pharmaceuticals eligible for credit from
collection to receipt of actual credits. The reports will, at a minimum,
include information identifying returnable pharmaceuticals with estimated
credits, non-returnable pharmaceuticals with the cost for disposal, actual
credits received, and contractor fees for each collection of pharmaceuticals.

Military Department Comments. Although not required to respond, the Army,
the Navy, and the Air Force concurred.

Audit Response. The Assistant Secretary of Defense (Health Affairs) did not
provide comments. We request that the Assistant Secretary provide comments in
response to the final report.

B.5. We recommend that the Assistant Secretary of Defense (Health Affairs)
and the Military Departments require the military treatment facilities to use
a pharmaceutical returns company that receives a contract when the next
procurement for services is awarded.

Military Department Comments. The Army stated that the new contracts will
be built on DoD policy requiring MTFs to have contracts with whatever
pharmaceutical returns company it uses. The Navy concurred, but did not provide
additional comments on the recommendation. The Air Force stated that the new
contracts will be built on DoD policy and that there should be no reason to use
any other contracts.

Audit Response. We consider the Army, the Navy, and the Air Force comments
to be partially responsive. The intent of this recommendation is to make the use
of any new national pharmaceutical returns contract, or contracts, mandatory.
Implementation of the recommendation is dependent upon the responses of the
Assistant Secretary of Defense (Health Affairs) to Recommendations B.4. and
B.5. We request clarifying comments from the Military Departments, indicating
whether they concur with mandating the use of national pharmaceutical returns
contracts. The Assistant Secretary of Defense (Health Affairs) did not provide
comments. We request that the Assistant Secretary provide comments in
response to the final report.




                                   25
Appendix A. Scope and Methodology
   To understand DoD pharmacy inventory management procedures, including the
   expired pharmaceutical returns program and information systems supporting
   pharmacy management, we met with TMA personnel; Military Department
   pharmacy consultants; pharmacy managers and staff at 10 Military Department
   MTFs; and representatives at 2 pharmaceutical returns companies,
   1 pharmaceutical prime vendor, and DSCP. In addition, to gain an understanding
   of pharmacy management procedures in the private sector, we contacted the
   pharmacy directors of three private-sector organizations that operate pharmacies.
   To learn about the DVA pharmacy program, we contacted the PRMP coordinator
   for the DVA and met with pharmacy staff at one DVA facility. The sites visited
   were:

          •   Military Treatment Facilities

                 −  11th Medical Group Clinic, Bolling Air Force Base, Maryland
                 −  347 Medical Group Clinic, Moody Air Force Base, Georgia
                 −  Andrew Rader Clinic, Fort Myer, Virginia
                 −  Lawrence Joel Army Health Clinic, Fort McPherson, Georgia
                 −  Madigan Army Medical Center, Fort Lewis, Washington
                 −  Michael O’Callahan Federal Hospital, Nellis Air Force Base,
                    Nevada
                 − National Naval Medical Center Bethesda, Maryland
                 − Naval Air Station Clinic, North Island, Coronado, California
                 − Naval Branch Medical Clinic, Dobbins Air Force Base,
                    Marietta, Georgia
                 − William Beaumont Army Medical Center, Fort Bliss, Texas
          •   Pharmaceutical Returns Companies

                 − EXP Pharmaceutical Services Corporation, Fremont, California
                 − Guaranteed Returns, Setauket, New York
          •   Pharmaceutical Prime Vendor – Cardinal Health, Dublin, Ohio

          •   Defense Supply Center Philadelphia, Pennsylvania




                                       26
       •   Private-Sector Organizations

              − Giant Headquarters, Landover, Maryland
              − Kaiser Permanente, Mid-Atlantic Regional Office, Rockville,
                  Maryland
              − Walgreens, Pharmacy Marketing System, Deerfield, Illinois
       •   Department of Veteran Affairs – Veterans Administration Medical
           Center, Washington, D.C.

At TMA, we met with the TMA pharmacy program director to gain knowledge of
pharmacy management within DoD and with TMA systems managers and staff to
identify the functional capabilities and implementation of CHCS and the DMLSS
system as they relate to pharmacy inventory management. We met with the
Military Department pharmacy consultants to better understand the Military
Departments’ pharmacy programs and the pharmacy consultants’ role in the
overall operation of MTF pharmacies. We judgmentally selected nine MTFs,
selecting one hospital and two clinics from each Military Department. At the nine
MTFs, we discussed five key issues—system support, inventory management,
stock levels, expiration dates, and the expired pharmaceutical returns program.
We visited a 10th MTF (Madigan Army Medical Center) to interview pharmacy
staff and determine whether the unique inventory management system used at the
facility was relevant to the overall audit objective. In addition, at the original
nine MTFs, we observed the ordering, receiving, and stocking of pharmaceuticals.
We also inventoried expired pharmaceuticals at four MTFs, two for each
pharmaceutical returns company visited, to determine the value and viability of
the requirement for MTFs to prepare pre-shipment inventories. Further, at five
MTFs, we checked the stock levels of certain pharmaceuticals that we
judgmentally selected and compared their on-hand levels with usage reports from
CHCS to determine whether pharmaceutical stock levels were maintained at the
levels stated by the MTFs.

We met with representatives from two pharmaceutical returns companies that
service DoD clients, including the PRMP contractor, to determine how they
interact with MTF staff, how they support the MTF regarding the identification
and management of credits received for returned expired pharmaceuticals, and
how they were reimbursed for their services. We met with representatives from
one prime vendor to determine how the vendor is involved with the DoD
pharmaceutical returns process. We met with representatives at DSCP to obtain
information concerning the award and administration of the PRMP contract. We
contacted the private-sector organizations to better understand how they handle
inventory management and their pharmaceutical returns program. We met with
DVA pharmacy staff to understand their processes concerning inventory
management and to determine their satisfaction level with the PRMP contractor.

To better understand the requirements for pharmacy inventory management and
the handling of returned expired pharmaceuticals, we reviewed DoD, Military
Department, and MTF policies, procedures, and reports. The documents and
reports we reviewed were dated from January 1995 through January 2004.




                                    27
    We used Government purchase card data to identify potential split payments.
    Specifically, we selected transactions processed over a designated time period to
    specific vendors, examined the data for instances of multiple transactions on the
    same day to the same vendor, and determined whether the total of those
    transactions exceeded the purchase card limit. We did not follow up with MTF
    personnel to document the potential improper payments.

    To better understand the cost of pharmaceuticals and credits received at the
    MTFs, we requested FY 2002 pharmaceutical expenditure and returns credit
    information from the Military Departments. We did not validate the data
    provided by the Military Departments.

    We performed this audit from April 2003 through March 2004 in accordance with
    generally accepted government auditing standards. We did not review the
    inventory management of controlled pharmaceuticals because prior Military
    Department audits addressed the issue. Further, storage and management of
    controlled drugs is overseen by the Drug Enforcement Administration and the
    Joint Commission on Accreditation of Healthcare Organizations. In addition,
    because of the small number of facilities visited and the small number of
    pharmaceuticals selected, information in the report concerning days’ stock
    on-hand cannot be assumed to reflect days’ stock on-hand at all DoD pharmacies.

    Use of Computer-Processed Data. To achieve the audit objective, we relied on
    computer-processed data from CHCS. We used the data to assess and compare
    inventory levels of selected pharmaceuticals. We did not perform a formal
    reliability assessment of the computer-processed data; however, any errors in the
    CHCS data would not change the conclusions in this report. We also relied on
    computer-processed Government purchase card data from Citibank and U.S.
    Bank, which were provided to us by the Defense Manpower Data Center. We did
    not perform a formal reliability assessment of the purchase card data because
    validation of the data was outside the scope of the audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Inventory Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of TMA, Military Department, and MTF management control plans for
    pharmacy inventory management and the self-evaluation at one MTF that
    addressed pharmaceutical returns.



                                        28
Adequacy of Management Controls. We identified a material management
control weakness at TMA and the Military Departments, as defined by DoD
Instruction 5010.40. TMA and the Military Departments did not establish
management controls for pharmacy inventory management to ensure the stock
levels of pharmaceuticals on-hand were not excessive, which would minimize the
number of expired pharmaceuticals left on the shelf. Recommendation A.1., if
implemented, will correct the identified weakness and could result in more
effective management of pharmaceutical inventories. A copy of the report will be
provided to the senior officials responsible for management controls in TMA and
the Military Departments.

Adequacy of Management’s Self-Evaluation. In FY 2003, the Navy and the
Air Force identified expired pharmaceutical returns as an assessable unit for the
MTFs. However, only one MTF visited had completed a self-evaluation. That
MTF identified weaknesses in its processing of pharmaceutical returns. Because
of the limited scope of their reviews, the Military Departments did not identify or
report the material management control weakness identified by the audit. TMA
and Military Department officials did not identify inventory management as an
assessable unit and, therefore, did not identify or report the material management
control weakness identified by the audit.




                                    29
Appendix B. Prior Coverage
    During the last 5 years, the GAO, the Inspector General of the Department of
    Defense (IG DoD), the Army Audit Agency, and the Air Force Audit Agency
    have issued 17 reports discussing pharmacy inventory management. Unrestricted
    GAO reports can be accessed over the Internet at http://www.gao.gov.
    Unrestricted IG DoD reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.


GAO
    GAO Report No. GAO-03-168, “Military Treatment Facilities: Internal Control
    Activities Need Improvement,” October 25, 2002


IG DoD
    IG DoD Report No. D-2002-094, “Pricing of Pharmaceutical Items in the Medical
    Prime Vendor Program,” May 23, 2002


Army Audit Agency
    Army Audit Agency Report No. AA-02-129, “Pharmaceutical Management, U.S.
    Army Medical Command,” January 25, 2002


Air Force Audit Agency
    Air Force Audit Agency Report No. F2003-0021-FDW000, “Pharmacy
    Operations: 6th Air Mobility Wing, MacDill AFB [Air Force Base], FL,”
    March 12, 2003

    Air Force Audit Agency Report No. F2003-0019-FBN000, “Pharmacy
    Operations: 3rd Wing Elmendorf AFB, AK,” December 23, 2002

    Air Force Audit Agency Report No. F2003-0009-FDN000, “Pharmacy
    Operations: 89th Airlift Wing, Andrews AFB, MD,” December 3, 2002

    Air Force Audit Agency Report No. F2003-0010-FDW000, “Pharmacy
    Operations: 45th Space Wing, Patrick AFB, FL,” December 2, 2002




                                      30
Air Force Audit Agency Report No. F2003-0012-FDM000, “Pharmacy
Operations and Controlled Substances: 1st Fighter Wing, Langley AFB, VA,”
November 26, 2002

Air Force Audit Agency Report No. F2002-0052-WS0000, “ Pharmacy
Operations: 375th Airlift Wing, Scott AFB, IL,” September 16, 2002

Air Force Audit Agency Report No. F2002-0032-WP0000, “Pharmacy
Operations: 810th Medical Operations Squadron, Peterson AFB, CO,” April 4,
2002

Air Force Audit Agency Report No. F2002-0023-WS0000, “Pharmacy
Operations: 82d Training Wing, Sheppard AFB, TX,” February 28, 2002

Air Force Audit Agency Report No. F2002-0020-EA0000, “Management of
Pharmacy Operations: 11th Wing, Bolling AFB, DC,” January 23, 2002

Air Force Audit Agency Report No. WR001024, “Pharmacy Operations: 59th
Medical Wing, Lackland AFB, TX,” June 21, 2001

Air Force Audit Agency Report No. ER001025, “Pharmacy Operations: 470th
Air Base Squadron, Geilenkirchen - NATO Air Base, Germany” May 17, 2001

Air Force Audit Agency Report No. DW001009, “Pharmacy Operations: 74th
Medical Group, Wright-Patterson AFB, OH,” December 27, 2000

Air Force Audit Agency Report No. WS001005, “Pharmacy Operations: 97th Air
Mobility Wing, Altus AFB, OK,” October 19, 2000

Air Force Audit Agency Report No. DH000017, “Pharmacy Inventory Controls:
66th Air Base Wing, Hanscom AFB, MA,” June 21, 2000




                                 31
Appendix C. Pharmacy Boards and Committees
   There are four boards or committees that provide guidance regarding MTF
   pharmacy policy and procedures.

   DoD/DVA Federal Pharmacy Executive Steering Committee. The Committee
   recommends improvements to the pharmacy benefits for DoD and DVA
   beneficiaries and oversees joint actions of the two Departments to eliminate
   redundancies in contracting and utilization management. Members include two
   co-chairs—Chairperson, DoD Pharmacy Board of Directors (DoD) and Chief
   Consultant for Pharmacy Benefits Management (DVA). Each Department also
   has three to five additional Committee members.

   DoD Pharmacy and Therapeutics Committee. The Committee develops and
   reviews the uniform formulary of pharmaceuticals for DoD. The Committee
   consists of voting and non-voting members, as specified in its charter, drawn from
   the Military Departments, DVA, and TRICARE network providers.

   DoD Pharmacoeconomic Center. The Center focuses on improving the clinical,
   economic, and humanistic outcomes of drug therapy in support of the readiness
   and managed care mission of the Military Health System. Additionally, the
   Center supports joint DoD/DVA initiatives. Its membership includes at least one
   military physician, one pharmacist, and one enlisted pharmacy technician from
   each Military Department.

   DoD Pharmacy Board of Directors. The Board is the functional proponent for
   pharmacy operations policy and business process improvements in support of the
   Executive Director, TMA. The Board provides direction to the DoD
   Pharmacoeconomic Center concerning functional requirements and standardized
   business practices. Membership includes the pharmacy consultants to the
   Surgeons General, as voting members, and the Director, DoD Pharmacy
   Programs, as a non-voting member.




                                       32
Appendix D. Shelf Stock Reviews at Clinics
            Visited

                      Results of Comprehensive Shelf Stock Reviews
                                    at Clinics Visited*

                      Approximate                    Instances of
                    Number of Stocked             First-in, First-out      Instances of Expired
        Clinic       Pharmaceuticals               Noncompliance             Pharmaceuticals
    Clinic 1               1,400                          42                          13
    Clinic 2                 200                          21                          54
    Clinic 3               1,000                          50                          11
    Clinic 4                 600                          42                          2
    Clinic 5                 700                          15                          9
    Clinic 6            Not Known                         19                          9
    *
     A comprehensive shelf stock review was not performed at the hospitals; therefore, only the
    results for the clinics are provided.




                                             33
Appendix E. Pharmaceutical Expenditures and
            Credits Received Information
   The following table is based on information requested from and provided by the
   Military Department pharmacy consultants. The Army was unable to provide
   information on credits received.



                                  Fiscal Year 2002 Pharmaceutical
                                 Expenditures and Credits Received
                                              in millions                      Credits as Percent
    Military Department             Expenditures Credits Received               of Expenditures
    Army                                $513.5           Not Available           Not Available

    Navy                                 396.3                $3.6                       .92

    Air Force                            492.4                 5.4                      1.10

        Total                         $1,402.21               $9.11                     1.022
    1
        Difference between line items and total due to rounding.
    2
        Total percent based on only Navy and Air Force expenditures and credits data.




                                                34
Appendix F. Pharmaceutical Returns
            Management Program Contract

Contractor Responsibilities
     The specific responsibilities of the PRMP contractor include regulatory
     compliance and registration, shipping and processing arrangements, establishment
     of estimated return value, disposal of non-returnable pharmaceuticals, and
     reporting and reconciliation.

     Regulatory Compliance and Registration. The contractor is responsible for
     complying with all Federal and State regulations that pertain to drugs, hazardous
     materials, environmental protection, and transportation. In addition, all necessary
     permits and licenses required by Federal, State, and local authorities must be
     acquired and maintained by the contractor for the life of the contract. The
     contractor must be a licensed Drug Enforcement Administration registrant for
     handling controlled substances.

     Shipping and Processing Arrangements. The returning facility (for example,
     the MTF) contacts the contractor directly to arrange for a return shipping date.
     The contractor furnishes all instructions, forms, labels, containers, and shipping
     supplies needed. If requested, and at additional cost, the contractor provides
     support on-site to inventory and prepare products for shipment to the contractor’s
     facility for processing. All shipping costs within the continental United States are
     the responsibility of the contractor. The contractor is required to process all
     pharmaceuticals for credit or destruction within 30 days after receipt of the
     returned goods.

     Establishment of Estimated Return Value. The contractor is required to
     compute the ERV for pharmaceuticals in accordance with contract guidance. The
     ERV is to be based on the DVA current purchase price, which is updated daily.
     Disposal of Non-Returnable Pharmaceuticals. The contractor is required to list
     items that cannot be returned to the manufacturer on a separate disposal manifest.
     The contractor provides additional manifests for controlled drugs and when
     destroying hazardous waste products. The contractor provides a certificate of
     destruction to the returning facility within 30 days of destruction.

     Reporting and Reconciliation. The contractor is required to provide to the
     returning facility detailed reports on returned goods, by manufacturer, within
     30 calendar days after receiving the returned pharmaceuticals. The reports
     include the invoice number, product name, national drug code, lot or batch
     number, quantity, and ERV. In addition, the contractor must provide to the
     returning facility a monthly status report of credit receipts, listing the
     manufacturer, ERV, actual return value, and pending credits. Monthly
     reconciliation reports are to be provided for all accounts individually and a
     summary report is provided to the DSCP contracting officer. Reports are to show,
     at a minimum, the ERV for pharmaceuticals destroyed, fees for services rendered,


                                          35
    credits received, and credits pending. The contractor is also responsible for
    contacting the manufacturer to assist in resolving issues of inadequate or non-
    payment of outstanding credits.


Contractor Payments
    The basic PRMP contract stated that the contractor would be paid a percentage of
    the ERV for each type of returnable pharmaceutical. However, an addendum to
    the contract states that the contractor should invoice and arrange for payment for
    all services through the applicable prime vendor. Based on that addendum, GRx
    receives its service fees from the prime vendor after credits are actually received.
    GRx bills on a monthly basis based on a percentage of the actual credits, plus the
    disposal fees for the non-returnable pharmaceuticals. The prime vendor stated
    that a percentage of the credits received from the manufacturer is deducted to pay
    the contractor’s fees.

    The processing fees for the current option period are 7.4 percent of credits for
    controlled substances and 7.1 percent for non-controlled substances. Fees for the
    optional on-site service are based on the location of the returning facility. The
    on-site service fees are 1.5 percent of credits for the continental United States;
    2.5 percent of credits for Alaska, Hawaii, Puerto Rico, Guam, and the Philippines;
    and 3.5 percent of credits for other locations. The disposal fees for all
    non-returnable pharmaceuticals are $2.62 per pound for hazardous waste and
    $0.32 per pound for non-hazardous waste. The contractor does not charge the
    returning facility an additional processing fee for non-returnable pharmaceuticals.




                                         36
Appendix G. Memorandum to the Military
            Department Surgeons General




                    37
38
Appendix H. Memorandum to the Commander,
            Defense Supply Center Philadelphia




                     39
40
Appendix I. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
  Assistant Secretary of Defense (Health Affairs)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Surgeon General of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Surgeon General of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Surgeon General of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Logistics Agency
   Commander, Defense Supply Center Philadelphia

Non-Defense Federal Organizations
Office of Management and Budget
Deputy Secretary of Veterans Affairs
Department of Defense/Department of Veterans Affairs Joint Executive Council



                                          41
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        42
Defense Logistics Agency Comments




                     43
44
45
46
Department of the Army Comments




                    47
48
49
50
51
52
Department of the Navy Comments
                                  Final Report
                                   Reference




                                  Omitted
                                  Omitted




                    53
54
55
56
Department of the Air Force Comments




                     57
58
59
60
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Readiness and Logistics Support prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Shelton R. Young
Michael A. Joseph
Robert T. Briggs
Carol N. Gorman
W. Sterling. Malcolm
Michael R. Nova
William C. Blouvet
Elizabeth N. Shifflett
